No. 20-1562
IN THE

'upreme Court of the Enitett *tato
FAYE STRAIN, as guardian of
Thomas Benjamin Pratt,
Petitioner,
v.

VIC REGALADO, in his official capacity;
ARMOR CORRECTIONAL HEALTH SERVICES, INC.;
CURTIS MCELROY, D.C.; PATRICIA DEANE, LPN;
KATHY LOEHR, LPC,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Tenth Circuit

MOTION FOR LEAVE TO FILE AND BRIEF
OF FORMER CORRECTIONS OFFICIALS AS
AMICI CURIAE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,383 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 10, 2021.

c.
Cohn CaseyTIogan
Wilson-Epes Printing Co., Inc.

